No. 20-1531
IN THE

$Upreme (!Court of tbe Wniteb $1ates
THE NORTH AMERICAN COAL CORPORATION,

Petitioner,
V.

U.S. ENVIRONMENTAL PROTECTION AGENCY AND
MICHAEL REGAN, ADMINISTRATOR OF THE U.S.
ENVIRONMENTAL PROTECTION AGENCY,

Respondents.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Reply to Briefs in Opposition in The North American Coal Corporation v. U.S.

Environmental Protection Agency, No. 20-1531, were served via overnight mail on all
parties required:
Brian H. Fletcher
Acting Solicitor General

Barbara D. Underwood
Solicitor General

DEPARTMENT OF JUSTICE

OFFICE OF THE ATTORNEY GENERAL

Counsel for Federal Respondents

Counsel for States and Municipalities

950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
su premectbriefs@usdoj.gov

28 Liberty Street
New York, NY 10005
(212) 416-8016
Barbara. underwood@ag. ny .gov

Beth S. Brinkmann
COVINGTON

& BURLING LLP

850 Tenth Street, NW
Washington, DC 20001
(202) 662-5312
b brinkmann@cov.com

Counsel for Power Company
Respondents

Sean H. Donahue
DONAHUE, GOLDBERG

Counsel for Non-Governmental
Organization and Trade Association
Respondents

I declare under penalty of perjury that the foregoing is

Date: August 24, 2021

& LITTLETON

1008 Pennsylvania Avenue, SE
Washington, DC 20003
(202) 277- 7085
sean@donahuegoldberg.com

